No. ______
In the

Supreme Court of the United States
__________________
FRANCISCO JAVIER PALILLERO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
SCOTT M. DAVIDSON
Counsel of Record
THE LAW OFFICE OF SCOTT M.
DAVIDSON, PH.D., ESQ.
1011 Lomas Boulevard NW
Albuquerque, New Mexico 87102
(505) 255-9084 (ph)
(505) 213-7212 (fax)
scott@justappeals.net
Counsel for Petitioner Palillero
March 4, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED FOR REVIEW
Whether precluding a criminal defendant’s DNA
rebuttal expert testimony as a Rule 16(d)(2) sanction
for a non-willful violation is compatible with the Sixth
Amendment right to present a defense.

ii
STATEMENT OF RELATED PROCEEDINGS
There are no proceedings in state or federal trial or
appellate courts, or in this Court, directly related to
this case within the meaning of this Court’s Rule
14.1(b)(iii).

iii
TABLE OF CONTENTS
QUESTION PRESENTED FOR REVIEW . . . . . . . . . . . . . . i
STATEMENT OF RELATED PROCEEDINGS . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . vi
PETITION FOR A WRIT OF CERTIORARI . . . . . . . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISION AND COURT RULE
INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . 2
BASIS FOR GRANTING THE WRIT AND ARGUMENT . . . 13
1. The right to present a defense is fundamental
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
2. Taylor left unanswered whether defense witness
exclusion for a non-willful discovery violation is
compatible with the Sixth Amendment right to
present a defense . . . . . . . . . . . . . . . . . . . . . . . . 16
3. Where a discovery violation is not willful,
exclusion of a helpful defense witness is
incompatible with the right to present a defense
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

iv
APPENDIX
Appendix A Order and Judgment in the United
States Court of Appeals for the Tenth
Circuit
(October 5, 2020) . . . . . . . . . . . . . . App. 1
Appendix B Judgment in a Criminal Case in the
United States District Court for the
District of New Mexico
(July 2, 2019) . . . . . . . . . . . . . . . App. 29
Appendix C Oral Ruling Denying Rule 29 Motion
(December 4, 2018) . . . . . . . . . . . App. 41
Appendix D Oral Rule Supplementing Order
Barring Petitioner’s DNA Expert
Testimony
(December 4, 2018) . . . . . . . . . . . App. 45
Appendix E United States’ Notice of Intent to
Introduce Expert Witness Testimony
Pertaining to Serology and DNA
Evidence Pursuant to Rules 702, 703
and 705 in the United States District
Court for the District of New Mexico
(November 19, 2018) . . . . . . . . . . App. 52
Appendix F Defendant Response to the United
States’ Notice to Introduce Expert
Witness Testimony Pertaining to
Serology and DNA Evidence Pursuant
to Rule 702, 703 and 705 in the United
States District Court for the District of
New Mexico
(November 28, 2018) . . . . . . . . . . App. 57

v
Appendix G Defendant’s Notice of Intent to
Introduce Rebuttal Expert Testimony
Pertaining to Serology and DNA
Evidence Pursuant to Rules 702, 703
and 705 in the United States District
Court for the District of New Mexico
(December 2, 2018) . . . . . . . . . . . App. 62
Appendix H Defendant’s Renewed Notice of Intent
to Introduce Rebuttal Expert
Testimony Pertaining to Serology and
DNA Evidence Pursuant to Rules 702,
703 and 705 in the United States
District Court for the District of New
Mexico
(December 4, 2018) . . . . . . . . . . . App. 67
Appendix I Summary: Motion of Intent for
Defense Expert to Testify: U.S.A. v.
Francisco Palillero
(December 4, 2018) . . . . . . . . . . . App. 73

vi
TABLE OF AUTHORITIES
CASES
Bowling v. Vose,
3 F.3d 559 (1st Cir. 1993) . . . . . . . . . . . . . . . . . . 17
Chambers v. Mississippi,
410 U.S. 284 (1973). . . . . . . . . . . . . . . . . . . . 14, 16
Crane v. Kentucky,
476 U.S. 683 (1986). . . . . . . . . . . . . . . . . . . . . . . 16
Escalera v. Coombe,
852 F.2d 45 (2nd Cir. 1988) . . . . . . . . . . . . . . . . 17
In re Winship,
397 U.S. 358 (1970). . . . . . . . . . . . . . . . . . . . . . . 16
Pennsylvania v. Ritchie,
480 U.S. 39 (1987). . . . . . . . . . . . . . . . . . . . . . . . 14
Rock v. Arkansas,
483 U.S. 44 (1987). . . . . . . . . . . . . . . . . . . . . . . . 16
Taylor v. Illinois,
484 U.S. 400 (1988). . . . . . . . . . . . . . . . . . . passim
Tyson v. Trigg,
50 F.3d 436 (7th Cir. 1995). . . . . . . . . . . . . . . . . 17
United States v. Adams,
271 P.3d 1236 (10th Cir. 2001). . . . . . . . . . . 13, 17
United States v. Cervone,
907 F.2d 332 (2nd Cir. 1990) . . . . . . . . . . . . . . . 17
United States v. Johnson,
970 F.2d 907 (D.C. Cir. 1992). . . . . . . . . . . . . . . 17

vii
United States v. Nixon,
418 U.S. 683 (1974). . . . . . . . . . . . . . . . . . . . 14, 16
United States v. Peters,
937 F.2d 1422 (9th Cir. 1991). . . . . . . . . . . . . . . 17
Washington v. Texas,
388 U.S. 14 (1967). . . . . . . . . . . . . . . . . . . . . 15, 16
CONSTITUTION AND STATUTES
U.S. Const. amend. VI.. . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RULES
Fed. R. Civ. P. 16(d)(2) . . . . . . . . . . . . . . . . . . . . . . . . 2
OTHER AUTHORITIES
Weinstein, Some Difficulties in Devising Rules for
Determining Truth in Judicial Trials, 66 Colum.
L. Rev. 223 (1966) . . . . . . . . . . . . . . . . . . . . . . . . 24

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Francisco Palillero hereby petitions for a
writ of certiorari to review the order and judgment of
the United States Court of Appeals for the Tenth
Circuit in United States v. Palillero, No. 19-2111. App.
A.
OPINIONS BELOW
The order and judgment of the Tenth Circuit can be
found at Appendix A. The judgment in a criminal case
can be found at Appendix B. The trial court’s oral
ruling denying Petitioner’s Rule 29 motion for
judgment of acquittal can be found at Appendix C.
The trial court’s oral ruling excluding Petitioner’s DNA
expert witness testimony can be found at Appendix D.
JURISDICTION
On October 5, 2020, the United States Court of
Appeals for the Tenth Circuit issued its order and
judgment affirming Petitioner’s conviction and the
district court’s exclusion of his rebuttal DNA expert.
App. A. The jurisdiction of this Court is invoked under
28 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISION AND COURT RULE
INVOLVED
The Sixth Amendment to the United States
Constitution provides, in pertinent part, as follows: “In
all criminal prosecutions, the accused shall enjoy the
right . . . to have compulsory process for obtaining
witnesses in his favor.”

2
Federal Rule of Criminal Procedure 16(d)(2)
provides, in pertinent part, as follows: “If a party fails
to comply with this rule, the court may: (A) order that
party to permit the discovery or inspection; specify its
time, place, and manner; and prescribe other just terms
and conditions; (B) grant a continuance; (C) prohibit
that party from introducing the undisclosed evidence;
or (D) enter any other order that is just under the
circumstances.”
STATEMENT OF THE CASE
Petitioner was accused of sexual assault on a
military base in New Mexico. App. 1-2. The prosecution
delayed disclosure of DNA reports. App. 9. The
prosecution’s DNA expert witness notice was late. Id.
When Petitioner asked for either exclusion or a
continuance---so that he could obtain an expert to
analyze the proposed expert testimony of the
government’s DNA expert---the trial court denied
the continuance and allowed the government’s expert
to testify. App. 10. When Petitioner filed a late
disclosure of his rebuttal DNA expert, the trial court
excluded it. App. 11.
When addressing the court, the government
characterized its expert’s testimony as exculpatory and
Petitioner’s proposed rebuttal testimony as cumulative.
App. 12. But to the jury, the government argued that
its DNA expert’s testimony showed that Petitioner
could not be excluded. Petitioner had no rebuttal DNA
expert testimony to point to in closing argument, due to
the trial court’s exclusion.

3
After the jury returned a guilty verdict, Petitioner
was sentenced to 121 months in prison. App. 31. His
appeal to the Tenth Circuit was unsuccessful. App. 28.
This case raises the question whether exclusion of an
important defense witness due to a non-willful
violation of Rule 16 is compatible with the Sixth
Amendment right to present a defense.
In August 2018, approximately four months prior to
trial, Petitioner’s attorney sent a written request to the
prosecutor for DNA results, noting that the DNA
evidence had been taken in April of 2018, and he had
still not received the requested DNA report about the
evidence that had been obtained and analyzed by
federal law enforcement officials.
The prosecution argued to the district judge that
there would be no need for Petitioner’s attorney to
“investigate what is an exculpatory report,” and thus
there would be no need for a continuance. When the
prosecutor characterized the DNA report for the judge,
she claimed that it “reads that Defendant’s DNA was
not found on the victim’s body.”
The Government actively and persistently tried to
persuade the trial judge that Petitioner’s attorney had
no need to investigate the Government’s DNA report.
The prosecution told the court that if an expected
second DNA report “reads that the [Petitioner’s] DNA
[is] not present on the victim’s clothing, then it is also
exculpatory. And I’m again hard-pressed to think of a
reason why a defense counsel would need time to
investigate that report.” The prosecutor told the judge
that “the DNA evidence at this point is exculpatory”

4
and that she doesn’t think “there’s anything to
investigate.”
The prosecutor told the judge that “[t]he DNA
swabs that are the subject of the first DNA report were
DNA swabs taken from the victim[’s] body. The
[Petitioner’s] --- And the report reads the [Petitioner’s]
DNA was not present on the victim’s body.”
Petitioner’s attorney noted that “in regards to the
first DNA report . . . there was another male’s DNA on
the subject’s hands and knuckles. And [he stated that
he] would like to know who that DNA belongs to.” He
emphasized that the “identity of that person is
important” to Petitioner’s case. He noted that he had
asked the prosecution on August 24, 2018 for DNA
results from a DNA test conducted on August 14, 2018.
The prosecutor once again tried to turn the court’s
attention away from the DNA results, asserting that
“the state of affairs is that the [Petitioner’s] DNA was
not present on the body.”
Petitioner’s attorney asked the trial court for “a
determination who[m] the DNA belongs to that’s
present on [Ashley Napier], both on her body and if --There’s some indication male DNA may be on her
undergarments. I’d like to know who it is, Judge. If it’s
not [Petitioner], it’s got to be somebody. That’s very
exculpatory, Judge. I think that’s the most exculpatory
thing that may arise out of this case at this point.”
Approximately two weeks prior to trial, on
November 19, 2018, the government filed its notice of
intent to offer expert DNA testimony by FBI forensic
examiner Jerrilyn Conway, even though the trial court

5
had set November 14, 2018 as the applicable deadline.
App. 9. On November 30, 2018, the court stated that if
Petitioner’s attorney could find a DNA expert, he or she
could testify. Id.
On December 2, 2018, less than two weeks after the
filing of the prosecution’s notice, Petitioner’s trial
counsel filed a notice of intent to introduce Dr. Michael
J. Spence as a rebuttal DNA expert. App. 10. Dr.
Spence was anticipated to testify about three specific
aspects of Ms. Conway’s expected testimony: (1) Y-STR
analysis, (2) autosomal genotyping, and (3) touch DNA.
Id.
After briefly summarizing Dr. Spence’s expert
qualifications in this area---which the prosecution
never contested---the notice stated that “[i]t is
anticipated that [Dr.] Spence will testify in rebuttal to
the methods of DNA analysis including Y short tandem
repeat [Y-STR] and autosomal genotyping in addition
to rebuttal testimony about the transfer of DNA,
including by touch.” Id. In addition, the notice stated
that Dr. Spence would “offer rebuttal testimony
regarding the topics outlined in the Government’s
Notice of Intent to Introduce Expert Witness.” These
specific topics were described in nine paragraphs,
spanning most of two pages.
The notice referenced government evidence that Dr.
Spence was anticipated to address. Dr. Spence
intended to rebut aspects of the following anticipated
testimony of the prosecution’s DNA expert:
The Y-STR typing results for the outside crotch
of the victim’s underwear indicate the presence

6
of DNA from two or more males. Because these
mixture results cannot be attributed to
individual contributors, they are not suitable for
matching purposes; however, they may be used
for exclusionary purposes. Based on the Y-STR
typing results, no comparison information for
the outside crotch of the victim’s underwear can
be provided for Defendant, thus the Defendant
cannot be included or excluded as a potential
contributor.
Another area that Dr. Spence was anticipated to
testify about pertained to deficiencies in the
prosecution’s expert’s reasoning, inferences and
conclusions from the DNA testing data. Specifically,
Dr. Spence was expected to refute parts of the
following:
A mixture of male and female DNA was obtained
from the inside crotch of the victim’s underwear.
No autosomal DNA typing results unlike the
victim’s were obtained from the inside crotch of
the victim’s underwear. The Y-STR typing
results for the inside crotch of the victim’s
underwear indicate the Defendant is excluded as
a potential contributor to the male DNA present.
The low quality of male DNA present on the
victim’s underwear could be consistent with
touch DNA or DNA remaining from a previous
sexual encounter after the underwear were
subjected to washing in a washing machine.
On December 4, 2018, Petitioner’s trial counsel filed
a renewed notice, offering additional and more specific
descriptions of Dr. Spence’s anticipated rebuttal

7
testimony. App. 11. Attached to this notice was a
detailed report---approximately 800 words in length--from Dr. Spence, describing his findings. Among the
reported findings was Dr. Spence’s conclusion that
“there is no scientifically reliable indication of DNA
from [Petitioner]” on the outside crotch area of Ms.
Napier’s underwear. Dr. Spence offered the following
overall conclusion, which the jury never heard: “The
forensic biology/DNA results from these eight evidence
items provide no scientific support for the allegations
associated with this case investigation.” App. 11.
At the beginning of the second day of trial, the court
addressed Petitioner’s notice of intent to offer the
testimony of a rebuttal DNA expert. App. 12. The
prosecution contended that
the defense characterizes this as two other male
DNA’s present, and he is---the Defendant has
multiple times throughout testimony referred to
two other male DNA’s present; however, that is
not what the results of that item says, is that
there was two male DNA present and the
Defendant could not be included or excluded.
And so we just take issue with the
characterization of the emphasis on “two other,”
because we don’t---it’s just two male’s DNA
present, not “two other.”
Petitioner’s attorney argued that the prosecution’s
claims were not correct. He observed that the report
“says two swabs from fingers and knuckles.” He further
noted that there were six items listed in the FBI lab
report. Petitioner’s attorney argued also that the entire
argument of the prosecution “about Ms. Conway taking

8
the stand is that it’s exculpatory. The only way it can
be exculpatory is when she talks about that he was
excluded . . . as a match.” The judge “push[ed] the
pause button” on this issue and returned to it later.
From December 2, 2018 onward, Petitioner’s
attorney consistently requested admission of his DNA
expert’s testimony, to which the prosecutor lodged
objections. App. 12. Petitioner’s attorney again raised
the issue after the conclusion of the prosecution’s case,
observing that Dr. Spence was available to testify that
afternoon, but was not currently in the courtroom. Id.
The prosecution claimed that it did not receive
notice of what the defense’s rebuttal DNA expert would
testify to, that the notice that Petitioner had filed was
inadequate, and that it would be cumulative for Dr.
Spence to offer any rebuttal testimony because
Petitioner’s expert would be testifying to “exactly what
Ms. Conway just testified to.” App. 11.
Although the government had previously agreed not
to object to a rebuttal DNA expert’s testimony at trial,
it nevertheless renewed its objections. App. 11-12.
Mr. Jennings noted that he “had made numerous
requests for DNA reports, including a request to
obtain” the identities of the other DNA contributors. He
argued that he had made numerous requests and filed
notices, and that to “deny [the defense] the ability to
have [its] expert testify kind of that cumulative effect,
overall, is becoming pretty prejudicial to [Petitioner]
and his defense.”
Petitioner’s attorney offered to present Dr. Spence
that afternoon for voir dire, but the court abruptly

9
rejected the offer and barred Petitioner’s DNA expert
from testifying at the trial. App. 12. The court later
supplemented its ruling as follows:
Mr. Jennings did have an ample opportunity to
cross-examine Ms. Conway in the area of her
analysis and the results of her testing and was
able to elicit testimony that the results of her
testing ruled out Mr. Palillero’s DNA from any of
the samples that were taken from Ms. Napier in
the form of swabs, et cetera. So that was wellestablished by Mr. Jennings, and in this way I’m
finding that with my ruling I’m not finding that
Mr. Prejudice---Mr. Palillero was prejudiced by
the ruling to exclude Mr. Spence. So that’s what
I wanted to add to my ruling.
At trial, Ms. Napier, read into the record before the
jury her written statement provided just after the
alleged assault. In her written statement, she alleged
that Petitioner initially came into her room and
touched her; she also alleged that he came into her
room a second time and sexually touched her again;
and she further alleged that he came into her room a
third time and sexually touched her again. But at trial,
she admitted that in fact she did not see Petitioner (or
anyone else) enter or exit her bedroom three times. She
had only “glimpses of those touchings.”
Ms. Napier testified that her dogs routinely barked
at her neighbor, Lieutenant Cole, when he grilled in his
backyard. Even though the dogs were in her bed during
the alleged assault, neither of them barked, in spite of
Ms. Napier’s claim that Petitioner entered her bedroom
three separate times and sexually assaulted her three

10
times while she and her dogs were in her bed. She also
claimed that all of this occurred within a 45-second
window of time.
FBI Special Agent Karen Ryndak testified that none
of the photos she took of the residence, inside or out,
showed any evidence that Petitioner committed sexual
assault of Ms. Napier. Special Agent Ryndak testified
that she was not aware of any physical evidence that
Petitioner sexually assaulted Ms. Napier. A SANE
nurse testified that she saw no visible injuries
anywhere on Ms. Napier.
Although fingerprints were taken from the door to
Ms. Napier’s bedroom, they did not provide any
evidence to inculpate Petitioner. A forensic science
consultant recommended that investigators swab the
door handle of Ms. Napier’s bedroom door, but Agent
Leslie Franz testified that she did not do so. An Air
Force security officer scanned Ms. Napier’s face and
hands for signs of an assault but found none. A
technical sergeant also testified that he looked at
Petitioner’s hands and face and founds no signs of an
assault. A SANE nurse examined Ms. Napier
extensively and found no visible indicia of any injuries.
Ms. Napier testified that Petitioner’s saliva was all
over her face, that his hands were in her pants, and he
was all over her. App. 3. Agent Franz testified that she
was not aware of any face-washing or hand-washing by
Ms. Napier. The SANE nurse also wrote in her report,
based on Ms. Napier’s answers to her investigative
questions, that Ms. Napier had not wiped or washed
her genital area between the time of the alleged assault
and the time of the SANE exam. Investigators took

11
many swabs from all over Ms. Napier’s body and
clothing, including her mouth area, her cheeks, her hip
area, her fingers and fingernails, and her genital area.
Ms. Napier had asked them to take swabs from all of
the places on her body where Petitioner allegedly
touched her. App. 6.
Ms. Conway testified that there was no DNA of
Petitioner in Ms. Napier’s mouth, on her mouth, on her
cheek or anywhere else on her body. App. 8. But there
was DNA of someone else on her fingers and knuckles;
Petitioner was excluded as the source of that person’s
DNA. Id.
On the outside of Ms. Napier’s underwear, there
was no DNA other than hers detected, using autosomal
testing. Id. The Y-STR method detected very low
amounts of male DNA; Ms. Conway opined that she
“could not attribute that to individuals, and so [she]
was unable to include or exclude [Petitioner] from that
sample.” She further speculated that it could have been
Petitioner’s DNA, even though the data showed no
indication of any of his DNA on any of Ms. Napier’s
clothing or body. Due to the district court’s exclusion
order, Petitioner’s rebuttal DNA expert was precluded
from offering any testimony on this aspect of the
prosecution’s DNA testimony. App. 11.
Inside the crotch area of Ms. Napier’s underwear,
her DNA was found, as well as the DNA of an unknown
male. App. 8. Petitioner was excluded as the source of
the male DNA found on the inside crotch area of Ms.
Napier’s underwear. Id. The DNA of other males in the
house and at the party were neither taken nor tested.

12
At the conclusion of the presentation of evidence,
Petitioner’s attorney again objected to the exclusion of
his rebuttal DNA expert’s testimony. App. 11.
In the Government’s closing, it argued to the jury
that Ms. Conway testified
that this could have happened exactly the way
Ashley said it did and the Defendant’s DNA
wouldn’t be present. Ms. Conway told you that
time elapse, crying, rubbing of the face,
vomiting, brushing the teeth, eating, drinking,
urinating, laying down, especially if tossing and
turning, can all significantly impact the ability
to collect DNA later. And what you heard in this
case is that every single one of those things
occurred between the time that the Defendant
sexually assaulted Ashley and when those swabs
were taken.
The prosecutor also argued to the jury that Ms.
Conway was “not surprised that the Defendant’s DNA
couldn’t be seen in this case.”
The prosecution argued to the jury that Petitioner
“seems to make a big deal of the fact that there’s
another male’s DNA on [Ms. Napier’s] panties.” The
prosecutor continued to contend that
[w]e don’t know [whose] DNA that is because
Adam’s DNA was not collected, but ask
yourselves and remind yourselves: Ashley was
engaged to Adam at the time. Ashley and Adam
lived together. Ashley and Adam shared a bed.
Connect the dots. Whose DNA do you think was
in Ashley’s panties? Adam’s DNA. Your reason

13
and common sense tells you that. . . . There’s a
perfectly good explanation for why there’s male
DNA on Ashley’s panties, DNA different than
the Defendant. It’s the husband, the fiancé at
the time, the husband now, the husband who’s
sitting with Ashley right now in the gallery.
After the jury returned a guilty verdict, the district
court imposed a sentence of 121 months. See App. 31.
Petitioner appealed the conviction to the United
States Court of Appeals for the Tenth Circuit. App. 1-2.
He argued, inter alia, that the district court reversibly
erred in barring his rebuttal DNA expert from
testifying. App. 13-14. The Tenth Circuit affirmed the
conviction, finding no reversible error. It relied on its
previous opinion in United States v. Adams, 271 P.3d
1236 (10th Cir. 2001). App. 21-24.
BASIS FOR GRANTING THE WRIT AND ARGUMENT
Petitioner’s case presents an opportunity to resolve
a circuit split, answer the lingering question of
appropriate sanction for a non-willful violation of Rule
16, and more clearly define the boundary of the Sixth
Amendment right to present a defense in this context.
The fundamental right to present a defense,
grounded in the Sixth Amendment right to compulsory
process, precludes exclusion of an important defense
witness as sanction for a non-willful discovery
violation. The district court’s exclusion of an important
defense witness in this case---choosing the harshest
remedy for a non-willful tardiness in disclosure of a
rebuttal DNA expert witness---was particularly
egregious in light of the following five facts: (1) the

14
court allowed the government’s own DNA expert to
testify in spite of a late disclosure; (2) the government
had delayed release of important DNA reports in spite
of Petitioner’s requests; (3) the government actively
sought to thwart the defense from investigating the
DNA reports; (4) the government falsely claimed that
Petitioner’s witness would offer only cumulative
testimony; and (5) the trial court refused to allow a
one-hour recess for Petitioner’s expert to arrive at the
courthouse so that court and counsel could voir dire
him. Under these circumstances, the exclusion of
Petitioner’s expert due to a non-willful violation of Rule
16 deprived him of the right to present a defense
guaranteed in the Sixth Amendment Compulsory
Process Clause.
1. The right to present a defense is fundamental.
The right of a criminal defendant to present
witnesses in his own defense is one of the most
fundamental rights. See Chambers v. Mississippi, 410
U.S. 284, 302 (1973). In Pennsylvania v. Ritchie, 480
U.S. 39, 56 (1987), this Court noted that its “cases
establish, at a minimum, that criminal defendants
have the right to the government’s assistance in
compelling the attendance of favorable witnesses at
trial and the right to put before a jury evidence that
might influence the determination of guilt.” This right
has been recognized as “an essential attribute of the
adversary system itself.” Taylor v. Illinois, 484 U.S.
400, 408 (1988). In United States v. Nixon, 418 U.S.
683, 709 (1974), this Court observed that it has
elected to employ an adversary system of
criminal justice in which the parties contest all

15
issues before a court of law. The need to develop
all relevant facts in the adversary system is both
fundamental and comprehensive. The ends of
criminal justice would be defeated if judgments
were to be founded on a partial or speculative
presentation of the facts. The very integrity of
the judicial system and public confidence in the
system depend on full disclosure of all the facts,
within the framework of the rules of evidence.
To ensure that justice is done, it is imperative to
the function of courts that compulsory process be
available for the production of evidence needed
either by the prosecution or by the defense.
A defendant’s “right to offer testimony is thus
grounded in the Sixth Amendment even though it is
not expressly described in so many words.” Taylor, 484
U.S. at 409 (citing Washington v. Texas, 388 U.S. 14, 19
(1967)).
The right to offer the testimony of witnesses,
and to compel their attendance, if necessary, is
in plain terms the right to present a defense, the
right to present the defendant’s version of the
facts as well as the prosecution’s to the jury so it
may decide where the truth lies. Just as an
accused has the right to confront the
prosecution’s witnesses for the purpose of
challenging their testimony, he has the right to
present his own witnesses to establish a defense.
This right is a fundamental element of due
process.
Washington, 388 U.S. at 19. The right to compulsory
process provides the criminal defendant “with a sword

16
that may be employed to rebut the prosecution’s case.”
Taylor, 484 U.S. at 410.
This Court underscored the due process
implications of this right: “The substantive limitation
on excluding criminal defense evidence secured by the
plain terms of the Compulsory Process Clause is also
grounded in the general constitutional guarantee of
due process.” Chambers, 410 U.S. at 298-302. See also
Rock v. Arkansas, 483 U.S. 44, 51 (1987); Crane v.
Kentucky, 476 U.S. 683, 690-91 (1986). Accordingly, the
“Compulsory Process and Due Process clauses thus
require courts to conduct a searching substantive
inquiry whenever the government seeks to exclude
criminal defense evidence.” Taylor, 484 U.S. at 423
(Brennan, Marshall and Blackmun, J.J., dissenting)
(citing Chambers, 410 U.S. at 302; Nixon, 418 U.S. at
709; In re Winship, 397 U.S. 358 (1970); Crane, 476
U.S. at 689-90; Washington, 388 U.S. at 23). The right
to compulsory process is “designed to vindicate the
principle that the ‘ends of criminal justice would be
defeated if judgments were to be founded on a partial
or speculative presentation of the facts.’” Taylor, 484
U.S. at 411 (quoting Nixon, 418 U.S. at 709).
2. Taylor left unanswered whether defense
witness exclusion for a non-willful discovery
violation is compatible with the Sixth
Amendment right to present a defense.
Judge Richard Posner, of the Seventh Circuit,
observed decades ago that there is uncertainty in the
law in cases where the excluded witness would
undoubtedly have been helpful to the defense and the
violation of the discovery order was not willful. See

17
Tyson v. Trigg, 50 F.3d 436, 445 (7th Cir. 1995). He
noted that “[n]o hard and fast rule has been devised to
strike the balance between the competing interests.”
Tyson, 50 F.3d at 444-45.
In Taylor, this Court noted that exclusion of a
defense witness due to a blatant and willful violation
did not violate the defendant’s Sixth Amendment right
to present a defense. See 484 U.S. at 416. The question
left open by Taylor is whether it violates the
Compulsory Process Clause to exclude an important
defense witness when the discovery violation is nonwillful.
The lower federal courts are split on how to
approach sanctions for non-willful discovery violations.
See Bowling v. Vose, 3 F.3d 559, 564 (1st Cir. 1993);
United States v. Peters, 937 F.2d 1422, 1426 (9th Cir.
1991); Escalera v. Coombe, 852 F.2d 45, 48 (2nd Cir.
1988) (per curiam). In each of these cases, the courts
require a deliberate violation of the discovery order to
exclude a helpful defense witness. But other courts
have diverged from this approach. See, e.g., United
States v. Johnson, 970 F.2d 907, 911 (D.C. Cir. 1992);
United States v. Adams, 271 F.3d 1236, 1244 (10th Cir.
2001). Some circuits, such as the Second Circuit, are
internally inconsistent. See, e.g., United States v.
Cervone, 907 F.2d 332, 346 (2nd Cir. 1990); Escalera,
852 F.2d at 48.
In Petitioner’s case, there was no blatant or willful
violation; the delay in disclosure of the DNA witness’s
proposed rebuttal testimony was in part due to the
delay in the government’s own late disclosure of its
expert and in the government’s delay in releasing DNA

18
and serology reports to Petitioner. Neither the
prosecution nor the trial court suggested that
Petitioner’s attorney’s tardy disclosure was willful in
any way.
Four months prior to trial, Petitioner’s attorney
attempted to obtain DNA reports from the government.
Two months later, on October 29, 2018, the prosecution
disclosed a DNA report to Petitioner. Although the trial
court had set November 14, 2018 as the deadline for
disclosure of expert witnesses, the government did not
disclose its witness until November 19, 2018. Petitioner
moved to either exclude this late-disclosed witness or
continue the December 3, 2018 trial setting so that he
could obtain a rebuttal DNA expert to investigate the
government’s DNA evidence and its late-disclosed
notice of intent to offer expert testimony regarding
DNA. The trial court excused the government’s late
disclosure, denied the request for continuance, and
allowed the government’s DNA expert to testify.
On November 30, 2018, the trial court told
Petitioner’s attorney that if he found a DNA expert, the
expert could testify. Two days later, on December 2,
2018, Petitioner’s attorney filed a notice of intent to
offer Dr. Spence as an expert to rebut certain
statements made by the government’s expert in her
report. He specified three areas addressed in the
government’s own DNA and serology report---(1) Y
short tandem repeat analysis, (2) autosomal
genotyping, and (3) transfer of DNA by touch.
On December 3, 2018, on the first day of trial, the
government requested that Dr. Spence be excluded as
a witness. It contended that its own expert’s testimony

19
was exculpatory and that Dr. Spence’s testimony would
be merely cumulative. The trial court excluded Dr.
Spence. At no point in the hearings addressing
Petitioner’s rebuttal expert was there any suggestion
that Petitioner was engaging in gamesmanship, or that
his witness would be presenting fabricated testimony,
or that Petitioner had blatantly or willfully violated
discovery rules. On the contrary, the prosecutor
acknowledged that Petitioner’s attorney was diligent in
his preparation for trial. Dr. Spence’s testimony was
excluded in spite of the absence of any evidence of a
willful violation of a discovery rule.
The exclusion of Petitioner’s rebuttal witness on
DNA and serology interfered with Petitioner’s ability to
present a defense. Petitioner was not able to offer Dr.
Spence’s testimony challenging the conclusions and
inferences of Ms. Conway. For instance, whereas she
contended that the absence of any of Petitioner’s DNA
on Ms. Napier’s body was consistent with her (latest)
version of the events, Dr. Spence would have testified
that “[t]he forensic biology/DNA results from these
eight evidence items provide no scientific support for
the allegations associated with this case investigation.”
When the prosecutors argued to the judge, they
characterized the DNA evidence as being exculpatory,
such as when they suggested there was no need for a
defense continuance, or when they pushed the court to
bar Petitioner’s rebuttal DNA expert from testifying.
But in front of the jury, the prosecutor’s slant on the
DNA evidence was notably different. For instance, the
prosecution claimed---without any evidence---that the
unknown male’s DNA could have been Adam’s, and

20
was still there after going through a washing machine.
There was no evidence at trial that it was from Adam;
nor was there any evidence as to when or how the
underwear had been washed. At the time of the
assault, Adam and Ms. Napier were engaged; by the
time of trial, they were married, yet there was no
mention of Adam’s DNA being taken for comparison to
the unknown male DNA on the underwear.
To the judge, out of the hearing of the jury, the
prosecution characterized the DNA evidence as being
exculpatory in pre-trial hearings. It succeeded in
persuading the district court that this was a valid
reason for excluding Petitioner’s rebuttal DNA expert
from testifying at trial, and not continuing the trial
date. But in the presence of the jury, the prosecution
took a very different approach, conducting the following
exchange with its own DNA expert at trial:
Q: And the [Petitioner] could not be included on
any of these items, correct?
A: That’s correct.
Q: And he could not be excluded from every single
item. Is that correct?
A: That’s correct, for the one sample where he was
inconclusive, yes.
Far from being viewed as exculpatory evidence, the
prosecution suggested to the jury that the very low
levels of DNA detected on Ms. Napier’s underwear
might have in fact been Petitioner’s. And the
prosecution used its DNA expert to drive home this

21
point. But Petitioner’s proffered rebuttal expert
regarding DNA evidence was excluded from the trial.
The district court’s exclusion of Petitioner’s expert
meant that the jury did not have an opportunity to
consider Dr. Spence’s testimony. He was anticipated to
expose serious weaknesses in Ms. Conway’s conclusions
and inferences. The jury did not hear from Dr. Spence
that “there is no scientifically reliable indication of
DNA from [Petitioner]” on the outside crotch area of
Ms. Napier’s underwear. Nor was the jury allowed to
hear Dr. Spence testify that “[t]he forensic biology/DNA
results from these eight evidence items provide no
scientific support for the allegations associated with
this case investigation.”
Dr. Spence would have challenged Ms. Conway’s
statement that Petitioner “cannot be included or
excluded as a potential contributor” of DNA found on
the outside crotch of Ms. Napier’s underwear. Ms.
Conway told the jury that Petitioner “could not be
excluded” from this DNA, Dr. Spence would have
testified that “there is no scientifically reliable
indication of DNA from [Petitioner]” there.
The government’s closing argument was built in
part on Ms. Conway’s unchallenged testimony. The
prosecutor repeatedly came back to its expert’s DNA
testimony as supporting its own theory of the case.
Petitioner’s attorney was not able to present a rival
version of the DNA and serology evidence, even though
three specific areas of challenge had been identified in
his proffer.

22
3. Where a discovery violation is not willful,
exclusion of a helpful defense witness is
incompatible with the right to present a
defense.
In Taylor, this Court recognized that “[o]ne of the
purposes of the discovery rule itself is to minimize the
risk that fabricated testimony will be believed.” 484
U.S. at 413. In Petitioner’s case, there was no
suggestion that Dr. Spence’s rebuttal testimony
regarding the government’s DNA and serology reports
would be fabricated. At no time did the prosecution
argue or even hint that Dr. Spence’s testimony would
be untruthful, or that defense counsel was engaging in
gamesmanship or intentional delay in disclosure of a
witness: “The Government agrees that defense counsel
has been very diligent in preparing for this case to go
to trial.” (Transcript, Nov. 5, 2018, at 13.) In Taylor, by
contrast, the Court expressed distrust in late disclosure
of the witness by the defense: “It is equally reasonable
to presume that there is something suspect about a
defense witness who is not identified until after the
11th hour has passed. If a pattern of discovery
violations is explicable only on the assumption that the
violations were designed to conceal a plan to present
fabricated testimony, it would be entirely appropriate
to exclude the tainted evidence regardless of whether
other sanctions would also be merited.” 484 U.S. at
413-14.
In Petitioner’s case, there was no pattern of
discovery violations leading to a reasonable
presumption of a deliberate design to thwart the
discovery process or surprise the prosecution. On the

23
contrary, Petitioner’s counsel had been seeking a
second DNA report from the government, and had
sought a continuance to secure a DNA expert who could
examine the delayed report and possibly testify at the
trial in rebuttal. It was the government that argued
against Petitioner’s investigating its DNA report; it
contended there’s nothing to investigate. It was the
government that contended that the DNA evidence was
exculpatory (at least when it was arguing to the judge
out of hearing of the jury); and it was the government
that delayed the release of DNA reports that
Petitioner’s attorney had been doggedly seeking access
to for months prior to trial.
In August 2018, nearly four months prior to trial,
Petitioner’s attorney had made a written request to the
government asking for DNA reports. The first DNA
report was not disclosed until October 29, 2018, even
though it had been requested in August.
The government’s notice of its DNA expert was five
days late; Petitioner requested either exclusion due to
this discovery violation or a continuance to obtain a
rebuttal DNA expert to investigate the government’s
proposed DNA testimony. The court denied both
requested forms of relief and allowed the government’s
late-disclosed DNA expert to testify.
On November 30, 2018 the court told Petitioner’s
attorney that if he could find a DNA expert, the court
would allow the expert to testify. Two days later, and
less than two weeks after the government’s late notice
of its DNA expert, Petitioner’s attorney filed a notice of
rebuttal DNA expert testimony, specifying three areas
of testimony: (1) Y short tandem repeat analysis;

24
(2) autosomal genotyping; and (3) transfer of DNA by
touch.
In dissent in Taylor, Justices Brennan, Marshall
and Blackmun noted that “where a criminal defendant
is not personally responsible for the discovery violation,
alternative sanctions are not only adequate to correct
and deter discovery violations but are far superior to
the arbitrary and disproportionate penalty imposed by
the preclusion sanction.” Taylor, 484 U.S. at 419
(Brennan, Marshall and Blackmun, J.J., dissenting).
In light of the fact that “discovery sanctions serve
the objectives of discovery by correcting for the adverse
effects of discovery violations and deterring future
discovery violations from occurring,” the dissenters in
Taylor proposed an approach to sanctions that more
fairly balances the competing values: “If sanctions
other than excluding evidence can sufficiently correct
and deter discovery violations, then there is no reason
to resort to a sanction that itself constitutes ‘a
conscious mandatory distortion of the fact-finding
process whenever applied.’” Taylor, 484 U.S. at 425
(Brennan, Marshall and Blackmun, J.J., dissenting)
(quoting Weinstein, Some Difficulties in Devising Rules
for Determining Truth in Judicial Trials, 66 Colum. L.
Rev. 223, 237 (1966)).
Neither of the two justifications for precluding
evidence as a corrective measure---(1) barring the
defendant from introducing testimony that has not
been tested by discovery, and (2) screening out
witnesses who are inherently suspect because they
were not disclosed until trial---apply in Petitioner’s
case. The first justification has no bearing on this case

25
because Petitioner’s attorney offered to bring the
witness to the court for voir dire by the prosecution and
the court. The court arbitrarily denied this request.
The second justification also does not apply because
Petitioner’s DNA expert was offered in rebuttal. Dr.
Spence was offered as a rebuttal DNA expert; his
qualifications were presented to the court, and he was
going to present evidence to rebut three specific claims
made by the government’s DNA expert. His testimony
is easily distinguishable from an inherently suspect
fact witness whose testimony is brought to light only at
the last minute. The timing of the disclosure of Dr.
Spence as a rebuttal expert was delayed, in part, by the
government’s delay in disclosing DNA evidence to
Petitioner’s attorney. The notice of Dr. Spence’s
rebuttal testimony, which included a summary of the
points he would be rebutting, was disclosed less than
two weeks after the government’s disclosure.
Petitioner sought to introduce testimony of a DNA
expert to rebut the testimony of the prosecution’s DNA
expert. The district court excluded this expert on
dubious grounds, choosing the harshest remedy for a
technical error by the trial attorney in the timing of the
disclosure of the DNA expert in advance of trial. The
prosecution had known for months that Petitioner was
questioning the DNA evidence, and the prosecution had
itself helped to bring about the late disclosure by the
defense due to the prosecution’s own late disclosure
and its efforts to prevent any defense investigation of
the DNA reports.
The trial court’s exclusion of Petitioner’s rebuttal
DNA expert witness, for a non-willful violation of Rule

26
16, cannot be squared with the Sixth Amendment right
to present a defense. The Court should review
Petitioner’s case to resolve a circuit split, and clarify
that the Sixth Amendment right to present a defense
forbids exclusion of a helpful defense witness as a Rule
16 sanction for a discovery violation that is not willful.
CONCLUSION
For these reasons, Mr. Palillero respectfully
requests this Court to issue a writ of certiorari to
review the order and judgment of the United States
Court of Appeals for the Tenth Circuit.
Respectfully submitted,
SCOTT M. DAVIDSON
Counsel of Record
THE LAW OFFICE OF SCOTT M. DAVIDSON,
PH.D., ESQ.
1011 Lomas Boulevard NW
Albuquerque, New Mexico 87102
(505) 255-9084 (ph)
(505) 213-7212 (fax)
scott@justappeals.net
Counsel for Petitioner Palillero

